Case 21-17, Document 44, 04/28/2021, 3088857, Pagel of 1

D. Conn.
20-cv-885
Covello, J.

United States Court of Appeals
FOR THE

SECOND CIRCUIT

At a stated term of the United States Court of Appeals for the Second
Circuit, held at the Thurgood Marshall United States Courthouse, 40 Foley Square,
in the City of New York, on the 27th day of April, two thousand twenty-one.
Present:
Robert D. Sack,
Raymond J. Lohier, Jr.,
Richard J. Sullivan,
Circuit Judges.
Christopher Daniel Everson,
Plaintiff-Appellant,
v.

21-17

Theresa Lantz, Commissioner of Corrections, et al.,
Defendants-Appellees.

Appellees move to dismiss the appeal as untimely filed and for summary affirmance. Upon due
consideration, it is hereby ORDERED that the motion to dismiss as untimely is DENIED, but the
motion for summary affirmance is GRANTED because the appeal “lacks an arguable basis either
in law or in fact.” Neitzke v. Williams, 490 U.S. 319, 325 (1989); see also Fed. R. App. P.
26(a)(3).
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk of Court

Case 3:20-cv-00885-AVC Document 18 Filed 12/01/20 Page 1 of 1

UNITED STATES DISTRICT COURT
DISTRICT OF CONNECTICUT
CHRISTOPHER EVERSON,
Plaintiff
v.

CASE NO. 3:20-cv-00885 (AVC)

THERESA LANTZ, COMMISSIONER OF
CORRECTIONS, JOHN ARMSTRONG,
NELVIN LEVESTER, and ROBERT
CARBONE
Defendants.
JUDGMENT
This action having come before the Court for consideration of the defendants
motion to dismiss, before the Honorable Alfred V. Covello, United States District Judge;
and
The Court having considered the motion and the full record of the case including
applicable principles of law, and having granted the defendants’ motion to dismiss on
November 30, 2020, it is hereby,
ORDERED, ADJUDGED and DECREED that judgment be and is hereby entered
in favor of the defendants.
Dated.at Hartford, Connecticut, this 1st day of December,. 2020.

ROBIN D. TABORA, Clerk
By: 1st Michael Bozek
Michael Bozek
Deputy Clerk
Entered on Docket: 12/1/2020

Case 3:20-cv-00885-AVC Document 17 Filed 11/30/20 Page 1 of 11

l>
UNITED STATES DISTRICT COURT
DISTRICT OF CONNECTICUT
CHRISTOPHER EVERSON,
plaintiff,
v.

Civil No. 3:20cv885(AVC)

THERESA LANTZ, et al. ,
defendants.
Ruling on the Defendants' Motion to Dismiss
This is an action for damages in which the plaintiff,
Christopher Everson, alleges that the defendants, Connecticut
Department of Correction (hereinafter "DOC") employees,
terminated his employment with the DOC in violation of his
constitutional rights.
1983.1

It is brought pursuant to 42 U.S.C. §

The defendants have filed a motion to dismiss based on,

inter alia, the doctrine of res judicata, because Everson has
filed two previous cases against these defendants.

For the

reasons that follow, the court concludes that Everson's prior
cases preclude the claims in this case.
FACTS
The complaint and the court's public docket records2 reveal
the following facts.

1 42 U.S.C. § 1983 provides in relevant part: "Every person who, under color
of any statute, ordinance, regulation, custom, or usage, of any State . . .
subjects, or causes to be subjected, any citizen of the United States . . .
to the deprivation of any rights, privileges, or immunities secured by the
Constitution and laws, shall be liable to the'party injured in an action at
law, suit in equity, or other proper proceeding for redress."
2 Federal Rule of Evidence 201 provides that the court may take judicial
notice of facts that "[are] not subject to reasonable dispute because [they]:

Case 3:20-cv-00885-AVC Document 17 Filed 11/30/20 Page 2 of 11

On March 5, 2004, Everson flled~a~compl-a-i-n-t_i.n__t_his court.
Everson v. Lantz, et al., 3:04cv387(RNC). In that case, Everson
claimed that the same defendants named in the within action,
violated his constitutional rights when they terminated his
employment with the DO'C.
On September 30, 2006, the court granted the defendants'
motion for summary judgment in part and rendered judgment for
the defendants on Everson's due process and "class of one" equal
protection claims.

On May 5, 2008, the defendants filed a

supplemental motion for summary judgment.

On February 4, 2009,

the court granted the motion, rendered judgment in favor of the
defendants and closed the case.
On March 2, 2009, Everson appealed the court's judgment and
on July 13, 2009, the second circuit dismissed the appeal.
On October 14, 2009, Everson filed a petition for writ of
certiorari to the U.S. Supreme Court.
Court denied the petition.

On October 4, 2010, the

On November 15, 2011, the Court

denied Everson's October 18, 2010 petition for rehearing.

(1) [are] generally known within the trial court's territorial
jurisdiction; or
(2) can be accurately and readfly determined from sources whose
accuracy cannot reasonably be questioned.
Fed. R. Evid. 201; see also Kramer v. Time Warner, 937 F.2d 767, ' 773 (2d Cir.
1991).

2

Case 3:20-cv-00885-AVC Document 17 Filed 11/30/20 Page 3 of 11
. '%

On January 19, 2016,
court.

ivers'on—f-i-l-ed—a—s.e.c.ond lawsuit in this

Everson v. Semple, et al., 3:16cv00077(RNC).

was based on the facts alleged in the first case.

That case

On September

16, 2016, the court approved and adopted the magistrate judge's
decision dismissing the case on res judicata grounds.
On October 4, 2016, Everson appealed the court's judgment
in the second case.
On November 1, 2017, the second circuit dismissed that
appeal.
On January 20, 2018, Everson filed a petition for writ of
certiorari to the U.S. Supreme Court regarding the second case
and on April 16, 2018, Court denied the petition. On June 11,
2018, the Court denied Everson's May 8, 2018 petition for
rehearing.
On July 27, 2018, Everson filed a motion for relief from
judgment in the first case. On March 25, 2019, the court denied Everson's motion,
brought pursuant .to rule 60(b), and on April 4, 2019, Everson
filed another appeal.

On September 25, 2019, the second circuit

dismissed the appeal.

The court concluded that the appeal

lacked "an arguable basis in law or fact."

Everson filed

another petition for a writ of certiorari to the Supreme Court,
which, on January 13, 2020, the Court denied.

3

Case 3:20-cv-00885-AVC Document 17 Filed 11/30/20 Page 4 of 11

On April 6, 2020, Everson filed a motion to vacate the
final judgment in the first case.

That motion remains pending

in that case.
On June 25, 2020, Everson filed the complaint in this case.
On July 21, 2020, he filed an amended complaint.
In the amended complaint, Everson states that "[t]his is an
[i]ndependent [ajction to obtain relief from a judgment in a
prior lawsuit,
Rule 60(d)(1)

[pjursuant to Federal Rules of Civil Procedure
.

.

tr

He maintains that "[t]his [i]ndependent

action is to impeach and vacate a prior decree and judgment."
Everson makes reference to "the original action" entitled
Everson v. Lance, et al, 3:04cv387(RNC).
STANDARD
A court must grant a motion to dismiss pursuant to Federal
Rule of Civil Procedure 12(b)(6), if a plaintiff fails to
establish a claim upon which relief may be granted.

Such a

motion "asses (es) the legal feasibility of the complaint,
does] not .

.

[it

. assay the weight of the evidence which might be

offered in support thereof."

Ryder Energy Distribution Corp. v.

Merrill Lynch Commodities, Inc., 748 F.2d 774, 779 (2d Cir.
1984) .

When ruling on a 12(b)(6) motion, the court must "accept

the facts alleged in the complaint as true, and draw all
reasonable inferences in favor of the plaintiff."

Broder v.

Cablevision Sys. Corp., 418 F.3d 187, 196 (2d Cir. 2005).
4

In

Case 3:20-cv-00885-AVC Document 17 Filed 11/30/20 Page 5 of 11

order to survive a motion to dismiss, the complaint must allege
"enough facts to state a claim to relief that is plausible on
its face."
(2007) .

Bell Atlantic Corp. v. Twombly, 550 U.S. 544, 570

The complaint must allege more than "[t]hreadbare

recitals of the elements of a cause of action, supported by mere
conclusory statements."
(2009) .

Ashcroft v. Iqbal, 556 U.S. 662, 678

The court may consider only those "facts stated on the

face of the complaint, in documents appended to the complaint or
incorporated'in the complaint by reference, and to matters of
which judicial notice may be taken."

Allen v. WestPoint-

Pepperell, Inc., 945 F.2d 40, 44 (2d Cir. 1991).
DISCUSSION
The defendants argue, inter alia, that Everson's claims are
barred by the doctrine of res judicata.3

Specifically, the

defendants state that the claims in Everson's two prior lawsuits
are based on the same facts as the instant case and those claims
have been fully litigated.

With respect to Everson's argument

that the court improperly failed to consider certain
"comparators" in dismissing the equal protection claims, the
defendants aver that such an argument could have been made in a

3 The defendants also argue that the claims in this case are barred by the
doctrine of collateral estoppel, the three year statute of limitations
applicable to 42 U.S.C. § 1983 claims, the Eleventh Amendment, and the fact
that Everson failed to properly serve the complaint on the individual
defendants. Because the court concludes that the case is barred by the
doctrine of res judicata, it does not reach these additional arguments.

5

Case 3:20-cv-00885-AVC Document 17 Filed 11/30/20 Page 6 of 11

prior case.

The defendants cite the fact that this case

involves the same parties and underlying claims as the prior
cases and the facts here satisfy the standard for application of
the doctrine of res judicata.
Everson argues in opposition that in this case he "pleads a
direct attack upon the final judgment of the original lawsuit"
and "that the final judgment and decision was 'wrong on the
merits, by accident or mistake.

I u4

He states that he "has no

other available or adequate remedy and the plaintiffs' own
fault, neglect or carelessness did not create the situation for
which he seeks equitable relief."

According to Everson, "[t]his

Independent Action does not plead the same claims and issues as
the prior 1983 tort action; as outlined in Paragraphs 29 through
46 of the Independent Action, the plaintiff here seeks equitable
relief, the cause of action is:

'if the truth and evidence of

the matter had been examined, the result of the judgment would
have been different .

.

/ ir

He argues that he is not

attempting to "re-litigate" claims from previous lawsuits and
that "res judicata does not preclude a litigant from making a
direct attack .... upon the judgment before the court which
rendered the judgment."

He cites Weldon v. United States, 70

4 He states that the "final judgment did in fact overlook and not mention or
examine any of the plaintiffs’ named comparators, and the plaintiff is
entitled to offer evidence to support his claim that the final judgment was
'wrong on the merits by result of accident or mistake. f n

6

Case 3:20-cv-00885-AVC Document 17 Filed 11/30/20 Page 7 of 11

F.3d 1, 5 (2d Cir. 1995), .Campaniello Imports Ltd. V. Saporiti
Italia, S.p.A., 117 F.3d 655, 662-663 (2d Cir. 1997), and "rule
60(b)'s 'savings clause.

t II

Everson reiterates that he "did.in

fact exercise all proper diligence in the original action" and
states that the fact that DOC officials withheld his mail5 left
Everson "effectively unable to protect his appeal or monitor his
appeal."
Pursuant to the doctrine of res judicata, "[a] final
judgment on the merits of an action precludes the parties or
their privies from relitigating issues that were or could have
been raised in that action."
399 (2d Cir. 2000)

St. Pierre v. Dyer, 208 F.3d 394,

(quoting Federated Dept. Stores, Inc, v.

Moitie, 452 U.S. 394, 399 (1981)); Monahan v, N.Y. City Dep't of
Corr., 214 Fi3d 275, 284 (2d Cir. 2000).
judicata

\> X

Therefore, res

bar[s] litigations between the same parties if the

-claims in the later litigation arose -from the same transaction6

5 He notes that he was incarcerated at the time the court issued its opinion
dismissing the original 2004 case and did'” not receive it until approximately
7 days prior to the date on which a motion for reconsideration was due.
Everson points out that he did not receive the judgment in that case until
after the time a motion for reconsideration was due. He states he requested
an extension of time to appeal and that the DOC was holding his legal mail.
Everson states that he had to resort to sending legal mail to his parents
address in order to avoid the problem with the DOC holding his mail, which
caused significant delays. With respect to the second case he filed in 2016,
Everson states that he meant to file it as a request to set aside the
judgment in the original 2004 case, pursuant to 28 U.S.C. sec. 1651(a). In
2012, Everson hired an attorney who had health problems and subsequently
passed away. He avers this attorney was handling Everson's employment case
from 2012-2015.
6 The term W X transaction' refers to a 'common nucleus of operative facts. / n
AmBase Corp. v. City Investing Liquidating Trust, 326 F.3d 63, 73 (2d Cir.

7

Case 3:20-cv-00885-AVC Document 17 Filed 11/30/20 Page 8 of 11

that formed the basis of the prior adjudication.

.

.

f tt

AmBase

Corp. v. City Investing Liquidating Trust, 326 F.3d 63, 73 (2d
Cir. 2003)

(quoting Maldonado v. Flynn, 417 A.2d 378, 381 (Del.

Ch. 1980) ) .

The second circuit has recognized "the well-

established rule that a plaintiff cannot avoid the effects of
res judicata by 'splitting' his claim into various suits, based
on different legal theories (with different evidence 'necessary'
to each suit)."

Waldman v. Village of Kiryas Joel, 207 F.3d

105, 110 (2d Cir. 2000)

(citing Woods v. Dunlop Tire Corp., 972

F.2d 36, 39 (2d Cir. 1992)).
To determine whether a subsequent action is barred under
the doctrine of res judicata, courts consider whether the
earlier decision was "(1) a final judgment on the merits;
a court of competent jurisdiction;

(2) by

(3) in a' case involving the

same parties or their privies; and (4) involving the same cause
of action."

EDP Med. Computer Sys. V. U.S., 480 F.3d 621, 624

(2d Cir. 2007).

"It must first be determined that the second

suit involves the same claim—or nucleus of operative-rfact—as the
first suit."

Waldman v. Village of Kiryas Joel, 207 F.3d 105,

108 (2d Cir. 2000)

(internal quotations and citation omitted).

Everson cites Campaniello Imports Ltd. V. Saporiti Italia,
S.p.A., 117 F.3d 665 (2d Cir. 1997), for the proposition that

2003) (quoting Schnell v. Porta Sys. Corp., 1994 WL 148276, at *4 (Del. Ch.
April 12, 1994)).

8

Case 3:20-cv-00885-AVC Document 17 Filed 11/30/20 Page 9 of 11

"[r]es judicata 'does not preclude a litigant from making a
direct attack ... upon the judgment before the court which
rendered it.

t tf

Id. at 661 (quoting Weldon v. United States, 70

F.3d 1, 5 (2d Cir. 1995)

(quoting Watts v. Pinckney-/. 752 F.2d

406, 410 (9th Cir. 1985)).

However, in that case, involving a

challenge to a prior settlement agreement, the second circuit
cited rule 60(b) and noted that the "[c]laimants must (1) show
that they have no other available or adequate remedy;

(2)

demonstrate that movants' own fault, neglect, or carelessness
did not create the situation for which they seek equitable
relief; and (3) establish a recognized ground—such as fraud,
accident, or mistake—for the equitable relief."

Id. at 662.

In

that case, the second circuit concluded that the plaintiff had
failed to satisfy this standard and, therefore, "res
judicata 'preclude[d] the parties or their privies from
relitigating issues that were or could have been raised in that
action." Id. at 663 (quoting Federated Pep11 Stores, Inc, v.
Moitie, -452 U.S. 394, 398 (1981).

Further, in Weldon v. United

States, 70 F.3d 1 (2d Cir. 1995), the plaintiff framed her claim
as a "direct" action, but the second circuit concluded that "res
judicata barred this independent action to void the judgment"
where the claims "were raised or should have been raised by [the
plaintiff] during the pendency of the earlier case .

.

at 5 (internal quotation and quotation marks omitted).
9

Id.

Case 3:20-cv-00885-AVC Document 17 Filed 11/30/20 Page 10 of 11
41

The defendants' motion to dismiss is granted based on the
doctrine of res judicata.

Although Everson repeatedly argues

that this case is an "independent action" seeking to challenge
the validity of the court's earlier judgment, he in fact seeks
reversal of that judgment which, in turn, requires consideration
of the claims forming the basis of the court's prior decision.
The plaintiff has filed two previous cases, Everson v. Lantz, et
al., 3:04cv387(RNC) and Everson v. Semple, et al.,
3:16cv00077(RNC), based on the same claims that form the basis
of the allegations in this case.

Those cases both represent

"(1) a final judgment on the merits;
jurisdiction;

(2) by a court of competent

(3) in a case involving the same parties or their

privies; and (4) involving the same cause of action."

EDP Med.

Computer Sys., Inc, v. United States, 480 F.3d 621, 624.

The

court concludes that this case "involves the same claim—or
nucleus of operative fact" of those prior lawsuits.

Waldman,

207 F.3d at 108 (2d Cir. 2000).
Even assuming that this is an "independent action" to
challenge the validity of the court's earlier judgment, Everson
fails to state facts that satisfy the rule 60(b) standard
articulated in Campaniello Imports Ltd. V. Saporiti Italia,
S.p.A., 117 F.3d 665 (2d Cir. 1997).

He has failed to provide

any facts to support the existence of fraud or a sufficient
"mistake" to warrant the equitable relief he seeks.
10

Although he

Case 3:20-cv-00885-AVC Document 17 Filed 11/30/20 Page 11 of 11

disagrees with the court's underlying decision in the firstfiled lawsuit, he has failed to provide sufficient facts to
support a conclusion that the decision was a mistake or the
result of fraud.

With respect to his argument that the court

should have considered "comparators" in its prior decision,
Everson has failed to provide sufficient facts that such an
argument could not have been raised in the prior litigation.
CONCLUSION
For the foregoing reasons, the defendants' motion to
dismiss (document no. 10) is granted.

The plaintiff's motions

for extension of time (document no. 13) and to appoint a special
process server (document no 15) are denied.
The clerk is hereby directed to render judgment in favor of
the defendants and close this case.
It is so ordered this 30th day of November 2020, at
Hartford, Connecticut.
/s/
Alfred V. Covello
United States District Judge

11

Case 21-17, Document 52, 06/02/2021, 3112302, Pagel of 1

UNITED STATES COURT OF APPEALS
FOR THE
SECOND CIRCUIT

At a stated term of the United States Court of Appeals for the Second Circuit, held at the
Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of New York, on the
2nd day of June, two thousand twenty-one.

Christopher Daniel Everson.,
Plaintiff-Appellant,
ORDER
Docket No: 21-17

v.

Theresa Lantz, Commissioner of Corrections, John
Armstrong, Nelvin Levester, Robert Carbone,
Defendants-Appellees.

Appellant, Christopher Daniel Everson, filed a motion for panel reconsideration, or, in the
alternative, for reconsideration en banc. The panel that determined the appeal has considered the
request for reconsideration, and the active members of the Court have considered the request for
reconsideration en banc.
IT IS HEREBY ORDERED that the motion is denied.

FOR THE COURT:
Catherine O'Hagan Wolfe, Clerk

Case 3:04-cv-00387-RNC

Document 132

UNITED STATES

Filed 02/04/09 Page

CONNECTICUT

CIVIL NO.

nelvin\evesterJ°HJ? armstr°ng,
CARBONE

1 of 1

district COURT

OF

district
CHRISTOPHER EVERSON
v.

'6frr'*^r@r

3:04CV38 7 (RNC)

VESTER and ROBERT

JUDGMENT
This

action

defendants'
Plaintiff

having

supplemental

come
motion

s cross-motion for

Robert N.

on
for

for

consideration

summary judgment

of

the

and

the

summary judgment before

the Honorable
Chatigny, United States
and
Ihe Court, having
considered the
record of the
including applicable
Principles of law, and
having issued a
and order granting the
defendants' motion and
motion/ it is hereby
ORDERED, ADJUDGED

and DECREED that
judgment be and
hereby is
defendants.
Dated at Hartford,
Connecticut, this 4th day of
February, 2009.
ROBERTA D.
TABORA, Clerk

entered in favor of

By

s/ JW________
Uo-Ann Walker
Deputy Clerk

\J . WT~0 V "UUUU / "I \IN O

L/U^UI I ICI II iOi

nieu v/uvmuij i-'age i ot y

ArP<*
-HN-PT-E-B—STA-T&S—DT’STRTCT-COURT'
DISTRICT OF CONNECTICUT
CHRISTOPHER EVERSON
Plaintiff,
V.

CASE NO. 3:04-CV-387 (RNC)

THERESA LANTZ, JOHN ARMSTRONG,
NELVIN LEVESTER and
ROBERT CARBONE,
Defendants.

RULING AND ORDER
Pending for decision is a supplemental motion for summary
judgment filed by the defendants seeking dismissal of plaintiff's
claim under 42 U.S.C. § 1983 that his employment with the
Connecticut Department of Correction ("DOC") was terminated
because of his race in violation of the Equal Protection Clause
of the Fourteenth Amendment.

Plaintiff, an African American,

alleges that he was disciplined more harshly for off-duty
misconduct than similarly situated Caucasian and Hispanic
employees.

In a prior ruling, summary judgment was granted to

the defendants on the other claims in the complaint.
and Order, September 30, 2006 (Doc. 48).

See Ruling

Since then, defendants

have supplemented the record with additional materials showing
that plaintiff was not treated differently than similarly
situated individuals outside his protected group.

After careful

review of the whole record, I conclude that plaintiff has failed
to produce sufficient evidence to permit a jury to return a

v^aaco.UH-OV-UUOO/- kimu

uocumeni ±ji hiiea U2/U4/U9 Page 2 of 9

v-e-rd-i-ct-fo-r-h-im on'The racial discrimination claim.

Accordingly,

the defendants' supplemental motion for summary judgment on this
claim is granted.1
I.

Facts
Plaintiff, while employed by the DOC as a corrections

officer, was arrested on two occasions and charged with various
off-duty offenses, including possession of marijuana and drug
paraphernalia.
investigations.

He reported the arrests and the DOC commenced
Plaintiff received accelerated rehabilitation on

some of f-he charges, including the drug charges, which were
dismissed after he successfully completed a period of probation.
Other charges were nolled.

Plaintiff failed to appear for a pre-

disciplinary conference with the DOC, after which his employment
was terminated.
denied.

He grieved the termination but the grievance was

The matter then proceeded to arbitration,

not participate in the arbitration process.

Plaintiff did

The arbitrator

concluded that the termination of plaintiff's employment was
supported by just cause.
II.

This suit followed.

Discussion
Summary judgment may be granted only if "there is no genuine

issue as to any material fact" and "the moving party is entitled
to judgment as a matter of law."

1

Fed. R. Civ. P. 56(c).

To

Plaintiff's cross-motion for summary judgment is denied.
2

^aoCo.u‘t-uv-uuoo/-r\iM^ uocumeni idi Hiea U2/U4/U9 Page 3 of 9

avoid summary judgment, pda-rn-td-f-f mirs‘t—p'odrrt—to—evidence—that—
would allow a reasonable jury to return a verdict in his favor.
See Anderson v. Liberty Lobby. Inc., 477 U.S. 242, 256 (1986);
Graham v. Long Island R.R.. 230 F.3d 34, 38 (2d Cir. 2000).
Plaintiff's equal protection claim under § 1983 is analyzed
using the same framework applied in! employment-discrimination
cases brought under Title VII (i.e., the burden-shifting
framework of McDonnell Douglas v. Green, 411 U.S. 792 (1973)).
See Feingold v. New York. 366 F.3d 138, 159 (2d Cir. 2004).

To

present a prima facie case, plaintiff must produce evidence that
his employment was terminated in circumstances giving rise
to an
inference of discrimination based on race.

See Patterson v.

County of Oneida. 375 F.3d 206, 221 (2d Cir. 2004).

Plaintiff

can satisfy this burden by showing that similarly situated
employees outside his protected group who engaged in conduct of
comparable seriousness were not terminated,
at 39.2

See Graham, 230 F.3d

If he makes this showing, the burden shifts to the

defendants to articulate a legitimate, nondiscriminatory
reason
for the termination.

See id.

Once such a reason is proffered,

the burden shifts back to the plaintiff to demonstrate by

issue2 of^f^c'telfo^n^'tj^LU^S

“

Graham, 230 F.3d at 38.
However, a court may properly grant summary judgment when no
reasonable jury could find that employees were similarly
situated.
See Harlen Assocs. v. Inc. Vill. of Minenla.
273 F.3d
494, 499 n. 2 (2d Cir. 2001).
3

uase 3:U4-cv-UU38/-RNC Document 131 Filed 02/04/09 Page 4 of 9

competent evidence that the defendants' explanation is a pretext
for discrimination, in other words, that the proffered
explanation is not true and that he was terminated because of his
race.

Id.
Plaintiff has satisfied his burden of presenting a prima

facie case.

He points to more than fifty similarly situated

corrections officers3 who faced criminal charges but were not

3These include, for example:
J.B., a white male corrections officer arrested and
charged first with assault on a police officer, driving while
intoxicated and criminal mischief and then again four months
later with disorderly conduct and assault in the third degree.
He was initially dismissed but then reinstated via stipulated
agreement.
(Def. Mem. S.J. Ex. 29 at 6.)
S.G., an Hispanic male corrections officer charged with
sexual assault in the first degree and burglary in the first
degree. There is no record of any disciplinary action against
him.
(Id. at 17.)
D.D., a white male corrections officer charged with
assault on a police officer, interfering with a police officer,
criminal mischief in the third degree, and driving under the
influence. He was initially dismissed but then allowed to return
via stipulated agreement.
(Def. Mem. S.J. Ex. 31 at 22.)
Among' those charged with drug offenses, plaintiff points to:
H.A., an Hispanic male corrections officer charged with
driving while intoxicated, speeding, failure to obey a traffic
signal, and possession of marijuana. He was placed on
administrative leave but then reinstated after two months.
(Def.
Mem. S.J. Ex. 29 at 2.)
C.C., a white male corrections officer charged with
larceny in the sixth degree, possession of marijuana, possession
and use of drug paraphernalia, and criminal trespass in the third
degree. He was placed on administrative leave while a DOC
investigation progressed, but allowed to return to service
thereafter.
(Id. at 9.)
J.F., a white male corrections officer arrested and
charged with disorderly conduct and possession of a controlled
substance. There is no mention of any discipline taken against
(continued...)
4

uase 3:u4-cv-UD387-RNC Document 131 Filed 02/04/09 Page 5 of 9

terminatedT4

Defendants Rave saT±s^±^^1rel^-buxdeTr-of—-_____

articulating a nondiscriminatory reason for the termination.
They state that plaintiff was terminated because he engaged in
drug related misconduct for which he received accelerated
rehabilitation and failed to participate in the DOC4 s
disciplinary process,

Defendants' explanation is supported by

admissible evidence sufficient to support a jury finding that
these are the true reasons for the termination,

Accordingly, to

avoid summary judgment, plaintiff must offer proof that would
permit a jury to find that the defendants' explanation is untrue
and that his race played a role in the termination.
Plaintiff has not carried this burden.

The DOC's policy of

treating drug offenses harshly has been sustained by the State
Board of Mediation and Arbitration, which has consistently found
that a drug offense provides just cause for terminating a
corrections officer.

(See, e

/ Def. Supp. Mem. S.J. Ex. 5)

("This Arbitrator has found many times in the past that the

3(...continued)
(Id. at 16.)
J.M. , an Hispanic male charged with driving under the
influence and possession of marijuana, He was initially
dismissed but allowed to return via a "last chance" stipulated
agreement. (Id. at 29.)
him.

Defendants' objection that these comparators are not
sufficiently similar is misplaced. At the prima facie stage, the
plaintiff's burden of production is "minimal." James v. New York
Rg.cinq Ass'n., 233 F.3d 149, 153 (2d,Cir. 2000) ." The defendants7
objections are better reserved for the nondiscriminatory- reason
and pretext stages of the analysis.
5

oase c5:u4-cv-uuc5«/-knu Document 131 Filed 02/04/09 Page 6 of 9

corrections op'exa-ti-o-n—can-net—be—r-un—by_o.fi:.i.c.exs who are involved
in any way in the sale or use of narcotics.

To allow this would

be to allow the inmate population, the corrections officers
guarding the inmate population[,] and the public itself to be
placed in harm's way.").

The disciplinary records defendants

have produced in this case show that the DOC has consistently
taken a hard line against drug offenders.

DOC arrest logs,

appended as exhibit 29 to defendants' first motion for summary
judgment, show that approximately 60% of DOC employees who were
charged with a drug offense were terminated.

(See id.)

In

addition, the arrest logs show that drug offenders of all races
were terminated at approximately the same rate, 58.33% for
African-Americans (seven out of twelve) compared to 58.14% for
Caucasians and Hispanics (twenty-five out of forty-three).
id. )

(See

Of those, like the plaintiff, with marijuana charges, one

of two African-American officers was terminated (50%), compared
with six of eleven Caucasian and Hispanic officers (55%)-.

Of

those, like the plaintiff, with a non-distribution drug charge as
well as additional charges, three out of five African-Americans
(60%) were terminated compared to eight of fourteen Caucasians
and Hispanics (57.14%).

(See id.)

In addition, the record confirms that plaintiff's refusal to
participate in the disciplinary process was a significant factor
in the termination of his employment.

6

The vast majority of the

uase 3:u4-cv-uu3»/-KNU Document 131 Filed 02/04/09 Page 7 of 9

comparators plaintiff points to participated in pre^di-s^xpitina'ry
and arbitration proceedings.

Of the four Hispanic or Caucasian

individuals in the arrest logs who were not terminated despite
being similarly situated to the plaintiff in that they faced nondistribution drug charges accompanied by other charges, all
participated in the disciplinary process through pre-disciplinary
hearings or arbitration proceedings or both.5

This serves to

5These are:
H. A. r an Hispanic male corrections officer charged with
driving while intoxicated, speeding, failure to obey traffic
signals and possession of marijuana. Defendants note that H.A.
not only participated in the disciplinary process, but also had
his charges nolled prior to returning to service, unlike
plaintiff whose drug charges were only dismissed after a twentymonth period of probation under his accelerated-rehabilitation
agreement.
(Def. Mem. S.J. Ex. 29 at 2.)
C.C., a white male corrections officer arrested for
sixth-degree larceny, possession of marijuana, possession of drug
paraphernalia, and third-degree criminal trespass, He
participated in the disciplinary process and was allowed to
return to work pursuant to a stipulated agreement, Defendants
note that the charges in this case were based on out-of-state
conduct, making them more difficult to prove and that the officer
participated in a Step Three hearing at the Office of Labor
Relations. (Id. at 9.)
J.F., a white male corrections officer arrested for
disorderly conduct and possession of a controlled substance, He
availed himself of the negotiation process at arbitration and
entered into a stipulated agreement. In addition, defendants'
note that he had his charges nolled prior to returning to work,
whereas plaintiff's drug charges remained pending during his
period of probation. (Id. at 16.)
J-M., an Hispanic male corrections officer arrested for
under the influence and possession of marij uana. He was
dismissed but then allowed to return to work on a "last chance"
stipulated agreement. The defendants note that J.M. produced
drug tests taken immediately after his arrest showing that he had
no marijuana in his system, making it difficult for the state to
prove its case during the disciplinary process. Needless to say,
(continued...)
7

oase cs:u4-cv-uu38/-kimu uocument 131 Hied 02/04/09 Page 8 of 9

^xpl'a±n—wh-y-pl-a-i-n-fe-i-f-f—w-a-s—t-r.ea.te.d_mo.r.e__harshly than othpr
officers who were charged with off-duty drug offenses accompanied
by other offenses and yet were not terminated.
In his response to the defendants' supplemental motion for
summary judgment, plaintiff contends that he should be compared
with all officers arrested for off-duty misconduct, not just drug
offenders.

But he offers no proof that the DOC's policy and

practice of treating drug offenders more harshly than others is a
pretext for racial discrimination.

Plaintiff also contends that

participation in the DOC's disciplinary process is irrelevant.
He asserts that the DOC's process addresses whether there is good
cause for a termination, not whether the constitutional standard
of equal protection is satisfied.

This argument misses the

5(...continued)
J.M.'s participation in this process was material to its
favorable resolution in his case. (Id. at 29.)
Two other individuals had similar charges to the plaintiff
and were not directly addressed by defendants. P.R., a white
teacher, charged with driving while intoxicated and
possession of marijuana, resigned from state service after having
the possession charge nolled.
(Id. at 40.)
Defendants have
elsewhere noted that plaintiff never sought to resign from his
position. In addition, there are conflicting records with regard
to A.C. , an Hispanic male corrections officer charged with
possession of marijuana, driving while intoxicated, and failure
to wear a seatbelt. The Department's arrest log shows that he
was charged with these offense in 2005 and placed on
administrative leave.
at 11.) However, in the disciplinary
log, there is no mention of these offenses; rather A.C. is cited
only for tardiness and exhaustion of sick leave.
(Def. Mem. S.J.
Ex. 31 at 17.)
The lack of information surrounding these two
comparators is far from sufficient to establish that the
defendants articulated non discriminatory reasons for terminating
plaintiff were merely a pretext for discrimination.
8

uase 3:u4-cv-00387-RNC Document 131 Filed 02/04/09 Page 9 of 9

P©i_-n-t—

Defendants explain that plaintiff was terminated while a

few other officers charged with similar off-duty misconduct were
not because the others took advantage of the opportunity to
defend themselves and in some cases negotiated stipulated
agreements allowing them to return to state service,

Plaintiff

emphasizes that he was not notified of his opportunity to
participate in a pre-disciplinary hearing until after the hearing
was held.

It is undisputed, however, that several attempts were

made to contact him to schedule a pre-disciplinary conference and
the conference was rescheduled twice when he failed to
appear.
(See Def. Mem. S.J. Exs. 9, 10, 15, 16, 17, 18.)
IV.

6

Conclusion
Accordingly, the defendants' supplemental motion for summary

judgment (doc. # 114) is hereby granted,

Plaintiff's cross­

motion for summary judgment (doc. # 121) is denied.

The Clerk

may close the file.
So ordered this 3d day of February 2009.

Is/ RNC
Robert N. Chatigny
United States District Judge

Because plaintiff has failed to present sufficient
evidence to support a finding that his employment was terminated
because of hxs race, it is unnecessary to consider defendants'
argument that they are entitled to qualified immunity.
9

Case 3:04-cv-00387-RNC Document 48 Filed 09/30/06 Page 1 of 14

UNITED STATES DISTRICT COURT
DISTRICT OF CONNECTICUT
CHRISTOPHER EVERSON,
Plaintiff,
V.

CASE NO. 3:04-CV-387 (RNC)

THERESA LANTZ, COMMISSIONER OF :
CORRECTION; JOHN ARMSTRONG;
:
NELVIN LEVESTER; ROBERT CARBONE,:
Defendants.
RULING AND ORDER
Plaintiff, a former employee of the Connecticut Department
of Correction ("DOC"), brings this action pursuant to 42 U.S.C. §
1983 alleging that he was terminated in violation of his
constitutional rights to procedural due process and equal
protection.

Defendants have moved for summary judgment, and

plaintiff has filed a partial cross-motion for summary judgment.
For the reasons that follow, summary judgment is granted for
defendants on the due process and "class of one" equal protection
claims but denied on the race-based equal protection claim.
I.

Facts
Plaintiff, an African-American male, began working as a

correction officer at DOC in 1984.
Statement 1 1.)

(Defs.' L. R. 56(a)!

At the time of the incidents that led to his

termination, he was not working because of a back injury and was
receiving workers' compensation benefits.
1

*9?e,Y\ohx V*

(PI.'s L. R. 56 (a)1

Case 3:04-cv-00387-RNC Document 48 Filed 09/30/06 Page 2 of 14

Statement ST 8 .)

Defendant Levester was the warden at Webster

Correctional Institution, where plaintiff was assigned to duty.
(PI.'s L. R. 56 (a)1 Statement 51 4, 7.)

Defendant Carbone was an

administrative captain at Webster Correctional Institution.
(Defs.' L. R. 56(a)! Statement 5 6.)

Defendant Armstrong was the

commissioner of the Department of Correction.
56(a)! Statement 5 3.)

(Defs.' L. R.

Defendant Lantz is the current

commissioner and is sued in her official capacity only.

(Defs.'

L.R. 56(a)! Statement 5 2.)
On October 27, 2000, a state court judge ordered plaintiff
to surrender all pistols and revolvers.
Statement 5 7.)

(See Defs.' L. R. 56(a)1

Hamden police officers subsequently executed a

search warrant at plaintiff's home seeking pistols and revolvers
that were known to be registered to him.
Statement 5 9.)

(Defs.' L. R. 56(a)!

According to the police report, plaintiff struck

a police officer executing the warrant and resisted arrest, and
the officers discovered 6.2 grams of marijuana, rolling papers,
and four marijuana roaches in a closet.

(See Defs.' Ex. 3.)

Plaintiff was arrested for interfering with execution of the
search warrant, disorderly conduct, assault on a police officer,
possession of marijuana, and possession of drug paraphernalia.
(Defs.' L. R. 56(a)! Statement 5 11.)
officer is a felony.

Assault on a police

See Conn. Gen. Stat. § 53a-167c.

Plaintiff

promptly reported the arrest to the DOC, and an investigation was

2

Case 3:04-cv-00387-RNC Document 48 Filed 09/30/06 Page 3 of 14

commenced.

(Defs.' L. R. 56(a)! Statement 151 15-19.)

In May

2001, plaintiff was granted accelerated rehabilitation.

In

January 2003, the charges were dismissed following a period of
probation.

(Defs.' L. R. 56(a)! Statement 5 47.)

On November 21, 2000, plaintiff was arrested on a warrant
charging him with threatening, harassment, sexual assault, and
criminal attempt to commit sexual assault.
Statement SI 21.)

Plaintiff reported this arrest to the DOC, and

. an investigation was commenced.
SIS! 22-24.)

(Defs.' L. R. 56(a)!

(Defs.7 L. R. 56(a)! Statement

The charges were nolled in December 2001.

(Defs.' L.

R. 56(a)! Statement SI 46.)
On January 10, 2001, defendant Carbone submitted to
defendant Levester investigation reports covering the two
arrests.

(See Defs.' L. R. 56(a)! Statement SISI 25-26, 30-31.)

In the course of his investigations, Carbone did not interview
anyone other than the plaintiff.
SISI 34-35.)

(PI.'s L. R. 56(a)! Statement

He believed that the purpose of the investigations

was to verify only the occurrence of the arrests, not the
underlying conduct precipitating the arrests.
56(a)! Statement SI 34.)

(Def.'s L. R.

He concluded that by virtue of

plaintiff's arrests on warrants there existed probable cause that
plaintiff had violated the Department's directive on employee
conduct.

(Defs.' L. R. 56(a)! Statement SISI 27, 32.)

A letter

was sent to plaintiff notifying him of a pre-disciplinary

3

Case 3:04-cv-00387-RNC Document 48 Filed 09/30/06 Page 4 of 14

conference.

(Defs.' L. R. 56(a)! Statement SI 35.)

not attend the conference.

Plaintiff did

(Defs.' L. R. 56(a)! Statement SI 36.)

The conference was rescheduled twice.

Plaintiff failed to appear

both times despite numerous notifications by mail and phone.
(Defs.' L. R. 56(a)! Statement SIS! 37-38, 42-43.)

Following the

pre-disciplinary conference on March 8, 2001, plaintiff's
employment was terminated for "just cause."
Statement SIS! 43-44.)
decision.

(Defs.' L. R. 56(a)!

Defendant Armstrong agreed with this

(Defs.' L. R. 56(a)! Statement SI 40.)

Plaintiff grieved his dismissal in March 2001.

(Defs.' L.

R. 56(a)! Statement SI 50.)

The grievance was denied.

R. 56(a)! Statement SI 51.)

The matter then proceeded to

arbitration.

(Defs.' L.

On April 22, 2002, the arbitrator denied

plaintiff's grievance and concluded that he had been terminated
for just cause.

(Defs.' L. R. 56(a)! Statement SI 52.)

Plaintiff

commenced this action on March 5, 2004.
II.

Discussion
Summary judgment may be granted only when "there is no

genuine issue as to any material fact" and "the moving party is
entitled to a judgment as a matter of law."
56(c) .

Fed. R. Civ. P.

The moving party has the burden of showing that no

genuine issue of material fact exists, and all reasonable
inferences must be drawn in favor of the nonmoving party.

Sec.

Ins. Co. of Hartford v. Old Dominion Freight Line, Inc., 391 F.3d

4

Case 3:04-cv-00387-RNC Document 48 Filed 09/30/06 Page 5 of 14

77, 83 (2dCirT~2*0t)-4-)-7

•Qn-ee—the—moving party has demonstrated

the absence of a genuine issue of material fact, the nonmoving
party must go beyond the pleadings and point to evidence in the
record showing a genuine issue of material fact..

Celotex Corp.

v. Catrett. 477 U.S. 317, 324 (1986).
Plaintiff asserts both procedural due process and equal
protection claims.

He claims that defendants infringed his

procedural due process rights by terminating him in violation of
the Department's directives governing employee discipline and
disciplinary investigations.1

He also claims that he was treated

more harshly than similarly situated Caucasian and Hispanic
employees in that he was terminated because of off-duty arrests
before conviction on the resulting charges.

Defendants move for

summary judgment on the ground that plaintiff has not adduced
evidence to support these claims.

In addition, they contend that

they are entitled to summary judgment based on qualified
immunity.
A.

Procedural Due Process

1 Plaintiff alleges a variety of irregularities in the
investigation of his misconduct and his termination. For
example, he alleges that defendant Carbone failed to interview
relevant witnesses to the incidents, in violation of Directive
1.10 SI 5.b, and that he based his conclusion that plaintiff had
engaged in misconduct solely on the fact of his arrests. He also
alleges that defendants Levester and Armstrong did not consider
whether the investigation was conducted fairly or whether
substantial evidence supported plaintiff's guilt when they
recommended termination, in violation of Directive 2.6 SI 13.
5

Case 3:04-cv-00387-RNC Document 48 Filed 09/30/06 Page 6 of 14

A procedural due process claim comprises two inquiries.
First, the court must determine whether the plaintiff has a
protected property or liberty interest.

Cleveland Bd. of Educ.

v. Loudermill. 470 U.S. 532, 538 & n.3 (1985).

Property

interests "are created and their dimensions are defined by
existing rules or understandings that stem from an independent
source such as state law,"

Id. at 538 (quoting Bd. of Regents v.

Roth, 408 U.S. 564, 577 (1972)).

The parties agree that

plaintiff had a protected property interest in his continued
employment because he could only be terminated for just cause.
Second, the court must determine what process is due.
541.

Id. at

This inquiry is a matter of federal law and requires

balancing the individual's interest, the government's interest,
which involves its interest in avoiding administrative burdens,
and the risk of erroneous deprivation.

See id. at 541-43 (citing

Mathews v. Eldridqe. 424 U.S. 319, 335 (1976)).
In Loudermill, the Court defined what process is due before
a state can deprive a public employee of a property interest in
continued employment.

After weighing the competing interests at

stake, the Court concluded that a "tenured public employee is
entitled to oral or written notice of the charges against him, an
explanation of the employer's evidence, and an opportunity to
present his side of the story."

Id. at 546.

The pre-termination

hearing need only be "a determination of whether there are

6

Case 3:04-cv-00387-RNC Document 48 Filed 09/30/06 Page 7 of 14

reasonable grounds to believe tKatn

; ag a-i-n-s-t —t-he------------

employee are true and support the proposed action" so long as the
employee has recourse to a post-termination hearing.

Id. at 545-

46.
Plaintiff appears to concede that defendants provided him
with the process due under Loudermill.

(See Doc. #38 at 17.)

He

argues instead that constitutional due process protections
require an agency to follow its own interna'l rules when
terminating employees, citing a line of cases originating in
Service v. Dulles. 354 U.S. 363 (1957).

Plaintiff misconstrues

these cases, which concern judicial review of federal agency
action under principles of administrative law.
Curators v. Horowitz, 435 U.S. 78, 92 n.8 (1978)

See Bd. of
(holding that

Service "enunciate[d] principles of federal administrative law
rather than of constitutional law binding upon the States").
Plaintiff cites no case holding that due process requires a state
agency to follow its own. internal procedures when terminating - an
employee.

In fact, Loudermill held just the opposite: "The

answer to [the] question [of how much process is due] is nob to
be found in the [state] statute."

470 U.S. at 541; see also

McDarby v, Dinkins, 907 F.2d 1334, 1337-38 (2d Cir. 1990)

("When

the minimal due process requirements of notice and hearing have
been met, a claim that an agency's policies or regulations have
not been adhered to -does not sustain an action for redress of

7

Case 3:04-cv-00387-RNC Document 48 Filed 09/30/06 Page 8 of 14

procedural due process violations." (quoting Goodrich v. Newport
News Sch. Bd., 743 F.2d 225, 227 (4th Cir. 1984))).2
The issue in a procedural due process claim is not whether
the state- decision was correct or complied with state procedural
regulations.

The Due Process Clause does not prohibit erroneous

deprivations of property; it requires that a person being
deprived of property receive due process.

This Court's role is

not to review the correctness of defendants' conclusion that just
cause existed for plaintiff's termination under the directives;
plaintiff already litigated this issue in arbitration.

Because

plaintiff has conceded that he received the process required

As one opinion cited by plaintiff stated:
It is not every disregard of its regulations by a
public agency that gives rise to a cause of action for
violation of constitutional rights. Rather, it is only
when the agency's disregard of its rules results in a
procedure which in itself impinges upon due process
rights that a federal court should intervene in the
decisional processes of state institutions.
While courts have generally invalidated
adjudicatory actions by federal agencies which violated
their own regulations promulgated to give a party a
procedural safeguard, we conclude that the basis for
such reversals is not . . . the Due Process Clause, but
rather a rule of administrative law.
Bates v. Sponbercr, 547 F.2d 325, 329-30 (6th Cir. 1976) (footnote
omitted).
Plaintiff has not articulated how defendants' alleged
failure to follow their internal rules resulted in a procedure
that itself impinged his rights, Rather, he broadly (and
incorrectly) asserts that a state employee's due process rights
are automatically violated when his employer does not follow its
internal rules.
8

Case 3:04-cv-00387-RNC Document 48 Filed 09/30/06 Page 9 of 14

-u-n-de-r—£ro-u-de-rml-i 1, he has failed to state a claim under the Due
Process Clause.3
B.

Equal Protection

The crux of plaintiff's equal protection claim is that he
was terminated before the criminal charges brought against him
were resolved, whereas similarly situated Caucasian and Hispanic
employees were not terminated until after they were convicted.
Defendants argue that there is no issue of genuine fact regarding
whether similarly situated employees were treated differently.
cannot agree.
"The Equal Protection Clause requires that the government
treat all similarly situated people alike."

Harlen Assocs. v.

Inc. Vill. of Mineola, 273 F.3d 494, 499 (2d Cir. 2001).

A

selective treatment claim under the Equal Protection Clause
requires a showing that the plaintiff was treated differently
from others similarly situated and that the selective treatment
was based on impermissible considerations such as race.

See

Giordano v. City of N.Y Z-f 274 F.3d 740, 750 (2d Cir. 2001).
Alternatively, under a "class of one" theory, a plaintiff may

3 Plaintiff argues that, because defendants allegedly
terminated him for conduct that was not grounds for termination
under the Department's directives, he lacked "notice" that he
could be dismissed for such conduct.
(See Doc. #38 at 10 n.9.)
I do not understand plaintiff to be arguing that he lacked the
notice required by Loudermill because plaintiff does not allege
that he lacked notice of the charges against him in advance of
his Loudermill hearing.
9

I

Case 3:04-cv-00387-RNC Document 48 Filed 09/30/06 Page 10 of 14

demonstrate that he was treated differently from others similarly
situated and that there was no rational basis for the difference
in treatment.
564 (2000)

See Vill. of Willowbrook v. Olech, 528 U.S. 562,

(per curiam).4

A plaintiff must demonstrate that an employee with whom he
seeks to be compared is "similarly situated in all material
respects."
2000)

Graham v. Long Island R.R.. 230 F.3d 34, 33 (2d Cir.

(quoting Shumwav v. United Parcel Serv., Inc., 118 F.3d 60,

64 (2d Cir. 1997)).5

The plaintiff and comparison employee need

not be identical, but they must be "subject to the same workplace
standards,

and the conduct for which they were sanctioned must e

be "of comparable seriousness."

Id. at 40.

"The determination

that two acts are of comparable seriousness requires

in

addition to an examination of the acts - an examination of the
context and surrounding circumstances in which those acts are
evaluated."

Id.

Whether individuals are similarly situated is

thus usually an issue of fact for the jury.

See id. at 39; see

—^so ffarlen Assocs., 273 F.3d at 499 n.2 (whether individuals are
similarly situated is generally an iss-ue for the jury, but the

The Second Circuit has not yet decided whether Olech
requires a showing of malice or bad faith. See, e.g., Bizzarro
v. Miranda, 394 F.3d 82, 88 (2d Cir. 2005); Giordano. 274 F.3d at
750-51.
5 Graham is a Title VIIl case but the Second Circuit applies
the same "similarly situated test in equal protection cases.
See, e.q. , Harlen Assocs., 273 F.3d at 499 n.2.
10

Case 3:04-cv-00387-RNC Document 48 Filed 09/30/06 Page 11 of 14

issue can be decided on summary judgment "where it rs~cTear"1:Kar“
no reasonable jury could find the similarly situated prong met").
On the record before me, there are genuine issues of
material fact regarding whether plaintiff was treated differently
than similarly situated Caucasian and Hispanic employees.
Defendants have submitted records allegedly showing that
employees of all races were terminated both before and after
conviction for felony and drug-related offenses.

The records

lack sufficient detail for me to conclude that these individuals
were similarly situated to plaintiff.

For example, many of the

drug offenses resulting in termination involved possession of
cocaine.

As plaintiff argues, a rational jury could conclude

that plaintiff was not similarly situated to employees arrested
for cocaine possession because Connecticut law distinguishes
between possession of narcotics such as cocaine and possession of
less than four ounces of marijuana.
279.6

See Conn. Gen. Stat. § 21a-

Similarly, it is debatable'whether plaintiff should be

Defendants have submitted various letters and other
documents concerning disciplinary action taken against other
o;^'’‘cers
show that employees of all races have been terminated
for felony and drug-related offenses before and after conviction.
(See Defs.' Ex. 35.) My review of these documents revealed four
explicit mentions of marijuana possession. An African-American,
was terminated for off-duty possession of marijuana.
(See Doc.
#31 at 33.)
Two Caucasians were terminated following marijuanarelated offenses but were allowed to return to work pursuant to a
stipulation.
(See Doc. #31 at 13, 22.) A third Caucasian was
terminated following an marij,uana-related arrest but was
subsequently allowed to resign in lieu of termination
(See Doc.
#31 at 67.) A jury might or might not find these individuals
11

Case 3:04-cv-00387-RNC Document 48 Filed 09/30/06 Page 12 of 14

compared to individuals arrested for selling narcotics or
possessing narcotics with intent to sell.

Moreover, I cannot

discern from the records submitted by the defendants whether some
employees were terminated pre- or post-conviction.
By contrast, plaintiff has identified several Caucasian and
Hispanic employees whose employment was not terminated following
a felony arrest.

For example, a white male with two arrests, one

for a felony offense of risk of injury to a minor, was placed on
administrative leave but not terminated.

(See Doc. #29 at 2.)

A

Hispanic male was placed on leave following arrests for sexual
assault and burglary; however, he was not terminated and was
allowed to return to work following a "not guilty" verdict.
Doc. #29 at 17.)

(See

Similarly, employees with drug-related arrests,

some more serious than plaintiff's, were not terminated preconviction.

A white male arrested for possession and sale of a

controlled substance was placed on leave and, pursuant to a
stipulation, suspended for thirty days.
• Doc. #31 at 33.)

(See Doc. #29 at 19;

Another white male arrested for possession of

marijuana was given a last chance stipulation.
10; Doc. #31 at 14.)

(See Doc. #2 9 at

It is conceivable that a reasonable jury

could find these individuals similarly situated to plaintiff.
Because I find genuine issues of material fact going to

similarly situated to plaintiff, but the differences in treatment
raise issues of fact to be decided by a jury.
12

Case 3:04-cv-00387-RNC Document 48 Filed 09/30/06 Page 13 of 14

wHeTther plaintiff was treated differently than similarly situated
individuals, summary judgment must be denied on plaintiff's racebased equal protection claim.

However, I grant summary judgment

on plaintiff's "class of one" claim.

Plaintiff makes no attempt

to argue in opposition to defendant's motion for summary judgment
that there was no rational basis for the difference in treatment.
In the absence of any such argument, this claim is deemed waived.
C.

Qualified Immunity

In the alternative, defendants argue that their actions are
protected by qualified immunity.

In assessing a defense of

qualified immunity, the relevant question is whether a reasonable
officer in the defendant's position could have believed the
defendant s actions lawful in light of clearly established law.
See Anderson v. Creighton. 483 U.S. 635, 641 (1987).

No

reasonable officer would have believed it lawful, in light of
clearly established law, to discipline African-American employees
more severely than.Caucasian or Hispanic employees,

Because

there are genuine issues of material fact going to whether
defendants treated plaintiff differently than similarly situated
Caucasian and Hispanic employees, I cannot determine at this
whether defendants are entitled to qualified immunity.
III. Conclusion
For the foregoing reasons, defendants' motion for summary
judgment [Doc. .#30] is hereby granted in part and denied in part.

13

Case 3:04-cv-00387-RNC Document 48 Filed 09/30/06 Page 14 of 14

Plaintiff"'!; mod~o'rr~fcrr a-ufMaa?-y-g-H4g-men-t__[.D.o:c.._.#J7_] is hereby
denied.

Count two ( class of one") and counts three and four

(procedural due process) are dismissed.
So ordered.
Dated at Hartford, Connecticut this 30th day of September
2006.

/s/
Robert N. Chatigny
United States District Judge

14

i K

•''ST £>f-coMN^N,)A

faffed*

UNITED STATES COURTOF APPEALS
FOR THE
SECOND CIRCUIT

OS-Oj-i&T

0/<vI6nV

At a stated Term of the United States Court of Appeals for the Second Circuit, held at the Daniel
Patrick Moynihan United States Courthouse, 500 Pearl Street, in the City of New York, on the 9 th
day of June, two thousand and nine,
Christopher Everson,
Plaintiff-Appellant,
V.

I,

JUNOSfMI

f,
!

Commis sioner Of Corrections, Theresa Lantz,
John Armstrong, Nelvin A. Levester, Robert
Carbone,

i

Defendants-Appellees.
ORDER
Docket Number; 09-0903-cv

The Civil Appeals Management Plan of tins court directs that within the (10) days after filing a
Notice of Appeal, the appellant shall, inter alia, either pay docketing fee or move for leave to proceed
in forma pauperis, and that m the event of default of this requirement the Clerk may dismiss the appeal
without fbrther notice.
The appellant herein not having so proceeded, upon consideration thereof, it is
appeal from the order of 2-4-09 from the United States District Court of Connecticut Mi and
DISMISSED. Any motions pending prior to the entry of this order o f dismissals deem

i

For the Couft
A
^C2erk
Catheri O'Hag;
By;
Deputy Clerk
**9

i:

!
II

!!

is

£ va.dlX-B
f

W*7

/

1

Apftny'Sjctf

I

UNITED STATES COUKT
Thufgood Marehall U.5. Courthouse at Foley Square

sd.SST.3S0>

MOTION INFORMATION JtXTKMBNT

________ Caemjj-impjUfiiuisliL!—:—.-------—!
i

;

8»ck«t K«tabsr(i):

»m.nr<
!
!
!
i

£ V%> k Sii

Q9-69C3.-Cv.

Ri?.ft.a l.lffta
“tSVoOQ

K C*'*/;| 5 ^ of-CtT
I

/iS

n '

■i

Set fartb feelaw precJw, complete iMcraem eirelief tought:

lUJGOAZm

. ne./ fe-f c^T R&caJJ marid&f&ruid.
-Qjzxk C'dSgdsAs-. r g afm^Mdi£3j
£j£j2&\tt£4„BuLix*i^A>b* "OPPOSING FA STV:
$Z<S&1r£ <m
MOVING PARTY!
Q Defeai&e*.
CpI^UlBtlff
p AppsUw.'s/PeiiliiSHt D Appel’-«*/Rt»p2citBi
MOVING ATTORN BY;
P&
(n«p.a cf sttirwy.with Era, eddrsu, phase aUMbwTOb e-c*ih

3 rmfiZ&t&SSA

’

V

Oi

1
j

<j\

rc

>

<5 S iSil -ff

l

:

' }

tjP'

CZ7Z

i

OPPOSING AT TOi«(£Y fNiacl:Jtyt-B
«*7S>
|e*5as,ef sitorat)', tvitH fire, eSdrw., paoot ntusber aud o-fflsU]
z
^ far ft,2_^ ^ -S /z£SYa_,
^TaT^ £ y
3S&SdiU$ ait/ Aq

i^J2£dshJj?c Z£2-

Mi'ah/A/jJL&ve*-' .

!

7
Ceuri'Iudgt'Agstcy appealed tcea:

//, S,D i^f^ij^^iA£L^C^^dp^Suh^Lli£A^3^Y
FOREMERGSNCV MOTIONS,MOTIONS FOR STAYS AND
INJUNCTIONS MiVDING APPEAL:
■
Hnj rcQuai: Ter relief ben# »rte briow?
Li Yei USNc

Pitut stub *pproprl»l» beset!
Hu seaieat ofoppoilng counsel:
A. bseatowgbrt
S been obtained.?

□ Yes
□ Yei

Nc

D No

Q Ye. pf
It ore! .rgumest reqaejUi?
(requejis &r oral irjuswol will floi s'esceeerliy be ijrtv.Bd)
Met erjuaieat ielecfippeel boon »it?
If yci, onier dele
__ .
,.
Slgpjture of Sit
-i-rfA^efei22«

a Yst

Hsi !hu relief beer previpuely .ought
it tjsie Court?

□ Ye*

^ No

Ne
Reqatsied retort <li!i: end «p:»ast!oc of emergency;

O

No

iOSe.
Dele:

D Ye.

Hee itrvict1 Seen effsaed?
JAtteeh procf of.srvice]

S No

ORDER
Before: Jon 0, Newman, Circuit Judge
IT IS HEREBY ORDERED that the motion to recall the mandate is DENIED.
No showing of manifest injustice. See District Court opinion dismissing
discrimination claim.
i
i

v I x- ©‘t

FOR THE COURT:
Catherine O’Hagan Wolfe, Clefs
by

-txw 1-L^

^8

5'COUi

4?

*

AU8 12 WQ9

V

%

Case 16-3381, Document 63-1, 09/08/2017, 2119723, Pagel of 4

ndnc J.
4-6-3-38.1_______ __
Everson v. Armstrong et al.
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

SUMMARY ORDER
1
2
3
4
5
6
7

RULINGS BY SUMMARY ORDER DO NOT HAVE PRECEDENTIAL EFFECT. CITATION TO A
SUMMARY ORDER FILED ON OR AFTER JANUARY 1, 2007 IS PERMITTED AND IS GOVERNED BY
FEDERAL RULE OF APPELLATE PROCEDURE 32.1 AND THIS COURT’S LOCAL RULE 32.1.1.
WHEN CITING A SUMMARY ORDER IN A DOCUMENT FILED WITH THIS COURT, A PARTY
MUST CITE EITHER THE FEDERAL APPENDIX OR AN ELECTRONIC DATABASE (WITH THE
NOTATION “SUMMARY ORDER”). A PARTY CITING TO A SUMMARY ORDER MUST SERVE A
COPY OF IT ON ANY PARTY NOT REPRESENTED BY COUNSEL.

8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27

At a stated term of the United States Court of Appeals for the Second Circuit, held at
the Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of New York,
on the 8th day of September, two thousand seventeen.

28
29
30
31
32
33
34

PRESENT:
Barrington D. Parker,
Susan L. Carney,
CircuitJudges.
Timothy C. Stanceu,
ChiefJudge, U. S. Court ofInt’l Trade. *

Christopher Everson,
Plaintiff-Appellant,
v.

No. 16-3381

John Armstrong, Official and Individual Capacity,
Scott Semple, Commissioner of Correction,
Official and Individual Capacity,
Defendants-Appellees.

FOR APPELLANT:

Christopher Everson, pro se, Hamden, CT.

* Chief Judge Timothy C. Stanceu, of the United States Court of International Trade, sitting by designation.

aVP»^Lv

r

Case 16-3381, Document 63-1, 09/08/2017, 2119723, Page2 of 4

I

-AM-ieUS-GURLAE:-

Carletha S.P. Texidor, Assistant Attorney

2
3
4

5
6
7

XjenefalrQffice~of~the-GoFineGticur^
Attorney General, Hartford, CT.

Appeal from a judgment of the United States District Court for the District of
Connecticut (Chatigny, J.).
UPON DUE CONSIDERATION WHEREOF, IT IS HEREBY ORDERED,

8

ADJUDGED, AND DECREED that the judgment of the district court entered on

9

September 7, 2016, is AFFIRMED.

10

Appellant Christopher Everson appeals from a judgment entered after the district

11

court sua sponte dismissed his suit pursuant to 28 U.S.C. § 1915(e)(2). We assume the parties’

12

familiarity with the underlying facts, the procedural history of the case, and the issues on

13

appeal, to which we refer only as necessary to explain our decision to affirm.1

14

We review de novo a district court’s sua sponte dismissal under § 1915(e)(2). Giano v.

15

Goord, 250 F.3d 146,149-50 (2d Cir. 2001). We conclude that the district court properly

16

dismissed Everson’s complaint on claim-preclusion grounds. Monahan v. N.Y.C. Dept, of Corr.,

17

214 F.3d 275, 285 (2d Cir. 2000) (A claim is precluded when “(1) the previous action

18

involved an adjudication on the merits; (2) the previous action involved the plaintiffs or

19

those in privity with them; [and] (3) the claims asserted in the subsequent action were, or

20

could have been, raised in the prior action.”). First, Everson’s 2004 action for damages under

21

42 U.S.C. § 1983 was resolved on the merits when the district court entered summary

22

judgment for defendants in 2009. Everson v. Comm’r of Corr., No. 04-cv-387 (Dkt. Nos. 48,

23

131); see also Beck v. Covering, 947 F.2d 639, 642 (2d Cir. 1991). Second, with the exception of

24

Commissioner Scott Semple, now sued in his individual capacity, the 2004 action and the
1 The named defendants were never served and, therefore, are not parties to this appeal. We directed the
Connecticut Attorney General’s Office to file a brief as amicus curiae in support of defendants’ position.
2

Case 16-3381, Document 63-1, 09/08/2017, 2119723, Page3 of 4
,«

1

current~action-involve-the-same-named.parries or those in privity with them. Third, in both

2

the 2004 action and the current action, Everson asserts claims under § 1983 based on his

3

allegedly discriminatory firing in 2001. Therefore, the district court properly determined that

4

the earlier dismissal of the 2004 action precludes Everson from pursuing the present claims

5

against the same parties.

6

Dismissal of Everson’s claim against Semple also was proper. The district court

7

dismissed this claim on claim-preclusion grounds even though it could have been argued that

8

Semple was not in privity with the plaintiffs in the 2004 action. We need not consider that

9

issue because the claim, even were it not so precluded, would be time-barred. See Lomsbury v.

10

Jeffries, 25 F.3d 131,133-34 (2d Cir. 1994). Moreover, to the extent Everson seeks in the

11

current action to hold Semple liable in his individual capacity as well as in his official

12

capacity, he fails to allege any facts to support an inference that Semple was personally

13

involved in the 2001 events giving rise to his claim. See, e.g., K <&A Radiologic Tech. Servs., Inc.

14

v. Comm’r ofDep’t ofHealth ofState ofN.Y., 189 F.3d 273, 278-79 (2d Cir. 1999) (stating that

15
16
17

[pjersonal involvement of the defendant in the alleged deprivation is a prerequisite to
recovery of damages under § 1983”).
Finally, Everson invokes this Court’s mandamus jurisdiction, seeking an order

18

directing the district court to revisit its 2009 summary judgment ruling. We deny the

19

requested relief. Everson has already had the opportunity to appeal the 2009 ruling, and

20

mandamus “[may] not be used as a substitute for the regular appeals process.” See, e.g, Cheney

21

v. U.S. Hist. Courtfor H.C., 542 U.S. 367, 380—81 (2004) (citation omitted).

22

3

- ' *..
oaoc

iu-oooi,

: >1^.;

_

uouumeru oo-i, ua/uo/zu i (, ziiarz'6, Page4 of 4

s «
4

*

‘

•>

-1-------------We_hay_e_cpnsidered Everson’s remaining arguments and find them to be without
2

merit. Accordingly, we AFFIRM the district court’s judgment.

3

FOR THE COURT:

4

Catherine O’Hagan Wolfe, Clerk of Court

■r

4

4

, , .

Case 3:16-cv-00077-RNC

Document 13

Filed 09/07/16

Page 1 of 2 _

UNITED STATES DISTRICT COURT /)
—DIST-RICT-OF-CONNECXLCUJ__^g^^^i

CHRISTOPHER EVERSON,
Plaintiff,

CASE NO. 3:16CV77 (RNC)

V.
SCOTT SEMPLE, Commissioner of
Correction, Official and Individual
Capacity, and JOHN ARMSTRONG, Official
and Individual Capacity,
Defendants.

JUDGMENT
This action having come on for consideration of the paintiffs motion for leave to proceed
—forma PauPens dkt. # [2], and the plaintiff's motion for appointment of counsel
dkt. # [3] before the Honorable Robert N. Chatigny, United States District Judge
and, District Judge Robert N. Chatigny referred the matter to the Honorable Judge Do

nna F.

Martinez, United States Magistrate Judge and,
The Honorable Donna F. Martinez, US Magistrate Judge having considered the full
record of the case including applicable principles of law, and having filed

a recommended

ruling dkt. # [10] granting the plaintiffs motion to proceed in forma pauperis, denying his motion
for appointment of counsel and recommending that his complaint be dismissed

without

prejudice pursuant to 28 U.S.C. § 1915 (e) (2)(B). The Court having approved and adopted
objection; it is hereby
ORDERED, ADJUDGED AND DECREED that this case be dismissed.
Dated at Hartford, Connecticut, this 7th day of September, 2016.

ROBIN D. TABORA, Clerk
By

/s/ TG
Terri Glynn
Deputy Clerk

over

...

...j.*

t

^
f./

)

nttH==&

U.S. District Court
United States District Court for the District

of Connecticut

Notice of Electronic Filing

The following transaction was
entered on 9/6/2016 at 9:59 AM EDT and filed
on 9/6/2016
Case Name:
Everson v. Semple et al
Case Number:
3:16-CV-0QQ77-R mo
Filer:
Document Number: 12(No document attached)
Docket Text:
"TD °f *he -commended
approved and adopted. Plaintiff contendoLf
■fIlf-nded rU,ing iS herebV
from relitigating the claims he raised in th^ *
J“d,cata does not prevent him
not adjudicated on the merits But thp ria- Pn°r acbon because the claims were
judgment, which
d,Sm!ssed
summary

ccmskier^'Vast rmo^nT'^of

re^Jud^0^^^3^*courtfaned^toGS

even

res judicata. Accordingly the Action k hprih"!? Wh®n the C,a'ms are barred bV
file. So ordered. Signed by Judge Robert NCh±fSm'SSed- Jhe C,erk will close the
Robert)
y
9 R°bert N‘ Chat|gny on 9/6/16. (Chatigny

AP/Viviik /c
|/

f-|;

V'

UNITED STATES DISTRICT COURT
---- DISTRICT OF CONNECTTPHT
CHRISTOPHER EVERSON,
Plaintiff,
v.

CASE NO. 3:16cv77(RNC)

SCOTT SEMPLE, ET AL.
Defendants.
RECOMMENDED RULING
Plaintiff, Christopher Everson, brings this employment
discrimination action against defendants Scott Semple and John
Armstrong—the Commissioner and former Commissioner of the
Department of Correction ("DOC"), respectively.

Pending before

the court is plaintiff's motion for leave to proceed in forma
pauperis pursuant to 28 U.S.C. § 1915 (doc. #2) as well as his
motion for appointment of counsel.1 (Doc. #3.)

Based on

plaintiff's financial affidavit, the motion to proceed in forma
pauperis is GRANTED.

However, I recommend that his complaint be

dismissed without prejudice pursuant to 28 U.S.C. §
1915(e) (2) (B) .
I.

His motion for appointment of counsel is DENTED.

Legal Standard

The same statute that authorizes the court to grant in
forma pauperis status to a plaintiff also contains a provision

^.S. District Judge Robert N. Chatigny referred the pending
motions to me on June 15, 2016. (Doc. #8.)

%V

V

* V

,,

»'

that protects against abuses of this privilege,

Subsection (e)

provides that the court "shall dismiss the case at any timeTf
the court determines that .
frivolous or malicious;

.

. the action .

.

.

(i) is

(ii) fails to state a claim upon which

relief may be granted; or (iii) seeks monetary relief against a
defendant who is immune from such relief."

28 U.S.C. §

1915(e) (2) (B) ; Neitzke v. Williams,. 490 U.S. 319, 325 (1989).
II.

Discussion

Plaintiff's complaint appears to challenge the court's
February 4, 2009 judgment against him in an earlier lawsuit he
filed in 2004.
04-cv-387(RNC)

See Everson v. Comm'r of Correction, Docket No.
(D. Conn. Feb. 4, 2009).

Plaintiff pleads the

same underlying facts as he did in the 2004 case.

He was

arrested in October and November 2000, but the charges later
were dismissed.

Immediately following both arrests, plaintiff

alleges that his employer, the Department of Correction ("DOC"),
"began its employee arrest procedure," with which plaintiff
maintains he cooperated fully.

Nonetheless, in March 2001, the

DOC terminated plaintiff's employment,

In April 2004, he filed

a complaint with this court pursuant to 42 U.S.C. § 1983,
alleging employment discrimination on the basis of his race.

In

February 2009, Judge Chatigny granted summary judgment in favor
of defendants .-

Plaintiff appealed to the Second Ci'rcuit, which

dismissed his appeal for failure to pay the filing fee.
2

He

filed a motion to reopen the case, which was denied,

Plaintiff

filed a petition for a writ of certiorari, which the United
States Supreme Court denied in November 2010.
"Under the doctrine of res judicata, or claim preclusion,
[a] final adjudication on the merits of an action precludes the
parties or their privies from relitigating issues that were or
could have been raised in that action."
F.3d 394, 399 (2d Cir. 2000)

St. Pierre v. Dyer, 208

(internal quotation marks omitted)

"Once a final judgment has been entered on the merits of the
case , that judgment will bar any subsequent litigation by the
same parties or those in privity with them concerning the
transactions out of which the first action arose .

The

doctrine of res judicata mandates the sua sponte dismissal of
the instant action."

Wasser v. Battista, No. 12-CV-2455

(RRM)(LB), 2012 WL 1901957, at *2 (E.D.N.Y. May 23, 2012).
Plaintiff's attempt to relitigate claims that already were
decided by this court is barred by the doctrine of res judicata
and thus,>; his complaint should be dismissed.

Eze v. Scott, No.

10-CV-1017, 2011 WL 4383140, at *4 (W.D.N.Y. Sept. 14, 2011)
("[R]epetitious litigation of virtually identical causes of
action is subject to dismissal under 28 U.S.C. § 1915 [e].")
(internal quotation marks omitted).
Turning to plaintiff's request for appointment of counsel,
a plaintiff in a civil case is not entitled to appointment of a
3

« V

free lawyer on request and the Second Circuit repeatedly has
cautioned district courts against the routine appointment of
counsel.

See, e-g., Hendricks v. Coughlin, 114 F.3d 390, 393

(2d Cir. 1997); Cooper v. A. Sargenti Co., 877 F.2d 170, 172 (2d
Cir. 1989).

Because volunteer-lawyer time is in short supply, a

plaintiff seeking appointment of a free lawyer must show first
that he "sought counsel and has been unable to obtain it."
McDonald v. Head Criminal Court Supervisor Officer, 850 F.2d
121, 123 (2d Cir. 1988).

If the plaintiff has been unable to

obtain counsel, he must then demonstrate that his complaint
passes the test of "likely merit."

Cooper at 173.

This

standard reguires a plaintiff to show that the claims in the
complaint have a sufficient basis to justify appointing a
volunteer lawyer to pursue them.

In light of my recommendation

to dismiss plaintiff's complaint on res judicata grounds,
plaintiff's motion for appointment of counsel is DENIED.
III.

Conclusion
For these reasons, plaintiff's motion
to proceed --in
forma
r
----------------

pauperis (doc. #2) is GRANTED, but I recommend that his
complaint be dismissed without prejudice,

Plaintiff's motion

for appointment of counsel (doc. #3) is DENIED.
Any party may seek the district court's review of this
•recommendation.

See 28 U.S.C. § 636(b)

(written objections to

proposed findings and recommendations must be filed within
4

*

V *1> '

S;

fourteen days after service of same); Fed. R. Civ. P. 6(a), 6(d)
& 72; Thomas v. Arn, 474 U.S. 140, 155 (1985); Frank v. Johnson,
968 F.2d 298, 300 (2d Cir. 1992)

(failure to file timely

objections to Magistrate Judge's recommended ruling waives
further review of the ruling).
Dated this 3rd day of August, 2016 at Hartford,
Connecticut.

___________ ;________ / S /________________ _

Donna F. Martinez
United States Magistrate Judge

5

